DOE/IG-0433




     INSPECTION                    INSPECTION OF THE
                                DEPARTMENT OF ENERGY’S
       REPORT                     CONFERENCE POLICIES
                                     AND PRACTICES




                                    DECEMBER 1998
   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
      OFFICE OF INSPECTIONS
                                   December 3, 1998

MEMORANDUM FOR THE SECRETARY

FROM:          Gregory H. Friedman /s/
               Inspector General

SUBJECT:       INFORMATION: Report on “Inspection of Department of Energy’s
                            Conference Policies and Practices”

BACKGROUND

The Department of Energy (Department) is a recognized world leader in technological
breakthroughs brought about by its many research and development programs. To
further these technical and scientific achievements, the Department and its contractors
conduct numerous conferences, meetings or symposiums every year. This inspection
sampled conferencing practices at the Department’s National laboratories and evalu-
ated the adequacy of Departmental conference policies and procedures.

RESULTS OF INSPECTION

The Department has not established adequate policies and procedures regarding the
conduct of its conference activities and the conference activities of its contractors.
Presidential, Office of Management and Budget (OMB), and Federal Travel Regula-
tion (FTR) guidance require that the Department minimize conference costs and es-
tablish or revise existing procedures to ensure such costs are kept to a minimum.
However, the inspection found that the Department does not have procedures in place
to ensure that conference costs are minimized, and weaknesses were found in some
conference management practices of the Department’s contractors.

We recommended that the Office of Human Resources and Administration in coordi-
nation with the General Counsel: (1) review the provisions of Presidential, OMB, and
FTR guidance and develop Department wide policies and procedures for all DOE and
DOE contractor conferences that address conference site selection, minimizing atten-
dance and reduction of overall costs of attending conferences; (2) develop policies re-
garding the approval level for all DOE and DOE contractor conferences; (3) develop
policy to reduce duplicate reimbursement for conference meals provided as part of
registration fees; (4) review the practice of charging a conference registration fee that
includes unallowable costs; (5) establish policy that unallowable conference related
costs be separately identified; (6) review the practice of DOE contractors using Fed-
eral funds to pay for conference banquet and meal expenses; and (7) in conjunction
with the Chief Financial Officer, determine the applicability of the Miscellaneous Re-
ceipt Act as it relates to the collection of conference related registration and exhibitor
fees.
                                                                                 2

MANAGEMENT REACTION

Management concurred with the finding and five of the seven recommendations, while
partially concurring with two recommendations, stating that the Department will issue
a Departmental Notice regarding conferencing that will include overall policy and pro-
cedures for DOE employees and contractors to follow for sponsoring and attending
conferences. Management also stated that the Notice will be replaced by a Depart-
mental Order prior to expiration of the Notice.

Attachment

cc: Deputy Secretary
    Under Secretary
INSPECTION OF THE DEPARTMENT OF ENERGY’S CONFERENCE
POLICIES AND PRACTICES

TABLE OF
CONTENTS

                    Overview

                    Introduction and Objective..................................................          1

                    Observations and Conclusions...........................................               3

                    The Department Lacks Adequate Policies and
                    Procedures Necessary to Provide for Control
                    Over the Cost of its Conference Activities.....................                       6

                    Details of Finding................................................................    6

                    Recommendations and Comments ...............................…                        19

                    Appendices

                    I. Scope and Methodology… .............................................              21

                    II. Actions Taken by Assistant Secretarial Offices
                        and Two Operations Offices to Implement
                        Conferencing Policies… … … … … … … … … … … … … … ...                             23
Overview

INTRODUCTION AND   The Department of Energy (DOE), including its contractors, is
OBJECTIVE          a recognized world leader in technological breakthroughs
                   brought about by its many research and development
                   programs. To further these technical and scientific efforts,
                   the Department and its contractors (which includes several
                   National Laboratories), conduct numerous conferences,
                   meetings, and symposiums each year. The themes of
                   these conferences generally include complex and diverse
                   topics such as Atomic Physics, Gammasphere Physics,
                   Mapping Gene Sequencing, the Advanced Light Source,
                   Exotic Nuclei, and Low Temperature Superconductors.
                   These conferences, meetings, and symposiums are
                   attended by representatives from the Department and the
                   Department’s contractors, as well as representatives from
                   the private sector and domestic/foreign academic
                   institutions.

                   The Department’s conference activities include meetings
                   (1) sponsored and managed directly by the Department;
                   (2) co-sponsored by the Department but managed by
                   Department contractors; and (3) sponsored and managed
                   by organizations outside the Department where DOE
                   Federal and contractor employees attend. The full scope
                   and cost of the Department’s conference activities is not
                   available because of the diverse sponsorship of these
                   conferences, and because there is no central source of
                   Department-wide information on this subject. During Fiscal
                   Year 1996, and the first half of Fiscal Year 1997, DOE
                   reported to Congress that 293 conferences were sponsored
                   by the Department. However, the inspection disclosed that
                   this number significantly understates conference activity
                   because it excludes conference activities of many of DOE’s
                   prime contractors. For example, at one Department
                   contractor site, 25 DOE contractor conferences conducted in
                   Fiscal Year 1996 were not included in the Department’s
                   report to Congress.

                   Our inspection initially examined the Department’s
                   conference activities at the Lawrence Berkeley National
                   Laboratory (Berkeley). Specifically, we found that several
                   questionable payments were made by the Berkeley
                   Cashier’s Office for conference-related expenses.
                   Additional inquiries revealed that allowable and unallowable
                   conference receipts were being commingled in Berkeley’s
                   Letter of Credit account. Berkeley conference

  Page 1                             Inspection of the Department of Energy’s
                                           Conference Policies and Practices
         management officials said they did not have an accounting
         system in place which could readily reconcile sources and
         uses of funds for allowable and unallowable conference
         costs. As a result of our initial inquiries, Berkeley
         conference management officials established a
         process in 1995 where two financial accounts were
         established within the Letter of Credit for each
         conference. One account was designated for allowable
         income and expenses, while the other account was
         designated for unallowable income and expenses.

         A Berkeley Internal Audit issued in January 1995 made
         several recommendations to improve LBNL conference
         management practices after several control weaknesses
         were found to exist in the processing of invoice payments
         and cash receipts, and in preventing unallowable costs from
         being incurred or claimed. A DOE Office of Inspector
         General Report, Number WR-V-96-21, issued in
         September 1996, found that Berkeley was using its Letter of
         Credit to finance unallowable costs, and that conference
         registration fees collected to pay unallowable costs were
         commingled with Departmental funds in the special bank
         account. In response to these concerns, Berkeley
         established a separate bank account outside of the Letter of
         Credit to deposit conference registration fees.

         In 1997, we expanded our inspection by sampling
         conference practices at other National Laboratories, and
         evaluating the adequacy of the Department of Energy’s
         conference policies and procedures. Our inspection
         objectives were to determine: (1) whether the Department
         has developed adequate policies and procedures regarding
         the conduct of its conference activities and the conference
         activities of its contractors; and (2) if the conferencing
         practices of Department contractors are consistent with
         existing requirements and guidance related to the
         administration of conference activities and the use of
         Federal funds.

         Recently, the Office of Inspector General also issued a
         report titled “The U.S. Department of Energy’s X-Change
         1997: The Global D&D Marketplace Conference” which
         identified a lack of Departmental policy on the funding of
         conferences, and questionable fiscal practices associated
         with the X-Change Conference.

Page 2                     Inspection of the Department of Energy’s
                                 Conference Policies and Practices
OBSERVATIONS      Our inspection found that the Department of Energy has not
AND CONCLUSIONS   developed adequate policies and procedures regarding the
                  conduct of its conference activities and the conference
                  activities of its contractors. Presidential guidance issued in a
                  February 10, 1993, memorandum to all Executive
                  Departments and Agencies stated that strict fiscal
                  responsibility must be exercised when selecting conference
                  sites and conference attendees. The Office of
                  Management and Budget (OMB), in issuing instructions
                  under OMB Bulletin 93-11 regarding the implementation of
                  this guidance, established as policy that Executive
                  Departments and Agencies were not to spend “hard-earned
                  tax dollars in ways that may appear to be improper.” OMB
                  Bulletin 93-11 specifically required that Executive
                  Departments and Agencies minimize conference costs and
                  establish or revise existing procedures to select conference
                  sites and make other conference arrangements to ensure
                  conference costs are kept to a minimum. This Bulletin
                  specifically stated that “conference costs” included all costs
                  paid by the Government, whether paid directly by a
                  Government agency or reimbursed by the Government to
                  contractors or others for a conference.

                  However, over five years after the original Presidential
                  guidance, the Department of Energy still does not have
                  consistent Department-wide procedures designed to assure
                  that strict fiscal responsibility is applied to the Department’s
                  conference activities and the conference activities of its
                  contractors. As a result, we found that weaknesses exist in
                  some conferencing practices of Department contractors.
                  Although there was some question as to whether the
                  Department required its contractors to comply with the
                  guidance and policy of the President and OMB; we found
                  that some contractor conference practices did not appear
                  to be consistent with the principles and concepts contained
                  in this guidance and policy. These include:

                  • Some non-DOE conference facilities are
                    being selected by National Laboratories
                    without evaluating or documenting the cost of
                    alternative conference sites.

                  • Some conferences were attended by many
                    DOE-funded participants, however, we could not
                    identify any Departmental policy which ensures that

 Page 3                               Inspection of the Department of Energy’s
                                            Conference Policies and Practices
            the number of conference participants is kept to a
            minimum.

         In addition, some conferencing practices of Department
         contractors may not be consistent with Federal policy on
         the use of Federal funds. Specifically:

         • A National Laboratory collected and used
           conference registration and exhibitor fees in a
           manner that may not be consistent with the
           provisions of the Miscellaneous Receipts Act or the
           provisions of its management and operating
           contract.

         • DOE and DOE contractor employees have attended
           DOE-sponsored conferences where meals have
           been provided through conference registration fees,
           however, some conference participants’per diem
           have not been properly reduced.

         • While sponsoring conferences, National
           Laboratories have used conference registration
           fees paid by other Federally-funded organizations
           to cover the cost of entertainment (recreational and
           social events), a practice that may not be consistent
           with the principle established by the U.S.
           Comptroller General that Federal funds cannot be
           used for entertainment unless specifically
           authorized by statute.

         • Some banquets associated with National
           Laboratories’conferences appear to be
           primarily entertainment and social activities where
           alcohol was served, a practice that may not be
           consistent with the Comptroller General principle
           that meals should not be paid for with Federal funds
           unless the meals include essential formal
           discussions, lectures or speeches associated with
           the conference.

         Given the magnitude of conferencing activities in DOE, we
         concluded that the Department should comply with both the
         letter and the spirit of the Presidential guidance and OMB
         policy by assuring that strict financial responsibility is


Page 4                     Inspection of the Department of Energy’s
                                 Conference Policies and Practices
         applied to all the Department’s conference activities,
         including those of its contractors. Further, as the
         Department proceeds to implement the requirements of the
         Government Performance and Results Act of 1993, the
         performance expectations for both DOE Federal and DOE
         contractor conference activities needs to be better defined.




Page 5                      Inspection of the Department of Energy’s
                                  Conference Policies and Practices
The Department Lacks Adequate Policies and Procedures Necessary to
Provide for Control Over the Cost of its Conference Activities

Presidential Guidance       On February 10, 1993, the President of the United States
and OMB Policy Require      issued a memorandum that provides guidance to the Heads
the Department to           of Executive Departments and Agencies regarding the need
Exercise Strict Financial   to reduce the cost of conferences. This
Responsibility and          memorandum states that, “The public interest requires that
Minimize Conference         agencies exercise strict fiscal responsibility when selecting
Costs                       conference sites,” and that “. . . agencies are not to select
                            conference sites without evaluating the cost differences of
                            prospective locations.” This memorandum also states that
                            “When agency representatives attend conferences
                            sponsored by others, the agency must keep its
                            representation to a minimum consistent with serving the
                            public’s interest.” In addition, this memorandum states that
                            “[t]he Office of Management and Budget, after consultation
                            with the agencies, will issue further directives necessary to
                            implement this requirement.”

                            On April 19, 1993, the Office of Management and Budget
                            issued OMB Bulletin 93-11, Subject: “Fiscal Responsibility
                            and Reducing Perquisites.” This bulletin, which applies to
                            all Executive Departments, states that “[a]s American
                            taxpayers are being asked to make a contribution to
                            reducing the deficit it is imperative that we not spend their
                            hard-earned tax dollars in ways that may appear to be
                            improper,” and that “[i]t is the responsibility of every
                            Department and agency to ensure compliance with the
                            President’s policies and attached guidance both in spirit
                            and in fact.”

                            OMB Bulletin 93-11 was intended to apply to all costs paid
                            by the Government for a conference, whether paid directly
                            by agencies or reimbursed by agencies to travelers or
                            others associated with the conference, e.g., speakers,
                            contractors, etc. “Conferences” were defined as meetings,
                            retreats, training activities, and other gatherings which
                            involve travel outside the attendees’permanent duty
                            stations. “Conference costs” were defined as “all costs”
                            paid by the Government for a conference, including, but not
                            limited to, travel to and from the conference, ground
                            transportation, lodging, meals and incidental costs, meeting
                            room and audiovisual costs, registration fees, speaker fees,
                            and conference-related administrative fees; and the cost of
                            employees’time spent at the conference and traveling to
                            and from the conference. An OMB Policy Analyst who

Page 6                                                                 Details of Finding
                          authored the portion of the Bulletin relating to conferences
                          advised that this Bulletin specifically applied to DOE
                          management and operating contractors, as well as DOE
                          Federal employees. He further advised that, in his opinion,
                          “the M&O contractor that operates a facility like the Hanford
                          Site or a National Laboratory is acting as an extension of a
                          Government agency, and that they are required to spend
                          Government funds according to Government policy.”

                          OMB Bulletin 93-11 requires agencies to select conference
                          sites that minimize conference costs, and when agency
                          representatives attend conferences sponsored by others,
                          the agency should keep its representation to a minimum
                          consistent with serving the public’s interest. Specifically,
                          the Bulletin requires that agencies: (1) establish or revise
                          existing procedures to select conference sites, and in
                          making other conference arrangements, to ensure that
                          conference costs are kept to a minimum; (2) document the
                          alternatives considered and rationale used in selecting
                          conference sites; and (3) establish or revise existing
                          internal policies and procedures for determining the
                          number and identity of persons to send to conferences.

                          On October 29, 1993, 41 CFR Part 301 (the Federal Travel
                          Regulation), was amended to include provisions for
                          conference planning as identified in OMB Bulletin 93-11.
                          This amendment requires agencies to establish policies
                          governing conference site selection, and policies and
                          procedures designed to reduce the overall cost of
                          attending conferences. This amendment also requires that
                          a senior agency official authorize Government sponsorship
                          or co-sponsorship of a conference which involves travel by
                          30 or more Federal civilian employees, and requires that a
                          senior agency official authorize a conference at a selected
                          site when the conference involves travel by 30 or more
                          Federal civilian employees.

Policies and Procedures   On March 10, 1993, the Department of Energy issued DOE
Relating to Conference    Notice 1130.3, “Departmental Conference Activity,” to
Activities Expired and    implement the revised responsibilities and authorities for
Were Canceled in          approval of Department of Energy-sponsored and
March 1994                co-sponsored conferences, and the provisions of the
                          February 10, 1993, Presidential memorandum. This notice
                          stated that “Departmental Elements are reminded that . . .
                          organizations are to provide in each conference request a

Page 7                                                               Details of Finding
                          rationale and justification for site selection; a cost
                          comparison of alternative sites considered; and certification
                          that the site selected is the most cost-effective considering
                          costs such as travel, per diem, and conference logistics.”
                          This notice also addressed the need to exercise strict
                          financial responsibility when determining the number of
                          DOE representatives to attend non-DOE-sponsored or
                          cosponsored conferences. However, DOE Notice 1130.3
                          expired on March 10, 1994. Similarly, on March 25, 1994,
                          DOE Order 1130.7B, “DEPARTMENTAL CONFERENCE
                          ACTIVITY,” which represented the only formal policies,
                          procedures, and responsibilities for the management of
                          conferences within the Department, was canceled as part of
                          the Department’s effort to reduce the “burden and volume”
                          of internal regulations.

The Department Does       Despite the policy established by the President in 1993 and
Not Have Adequate         the OMB implementing guidance, the Department of Energy
Department-wide           does not have adequate Department-wide policies and
Conference Policies and   procedures designed to assure that strict fiscal
Procedures                responsibility is applied to the Department’s conference
                          activities, and the conference activities of its contractors. In
                          an effort to address the cancellation of DOE Order 1130.7B
                          and comply with the requirements of the Presidential
                          memorandum, OMB Bulletin 93-11, and the Federal Travel
                          Regulation; the Assistant Secretary for Human Resources
                          and Administration (HR) delegated the authority for
                          conference approval in a May 24, 1994, memorandum
                          titled "Approval of Department of Energy Conferences."
                          This memorandum had the specific effect of delegating
                          conference approval authority formerly held by the
                          Secretary of Energy and/or HR, to Secretarial Officers,
                          Managers of Operations Offices, and Administrators of the
                          Power Marketing Administrations. This memorandum
                          authorized Secretarial Officers, Managers of Operations
                          Offices, and Administrators of the Power Marketing
                          Administrations to approve all Department of Energy
                          conferences which are sponsored or co-sponsored by their
                          respective organizations, regardless of the total estimated
                          cost or the number of Departmental and/or contractor
                          attendees. This memorandum also authorized Secretarial
                          Officers and Managers of Operations Offices to determine
                          the approval level for their respective management and
                          operating contractor conferences, and states that “All
                          conferences sponsored or cosponsored by Departmental

  Page 8                                                               Details of Finding
                          Elements are to fully comply with the conference policy
                          contained in [the Federal Travel Regulation] (summary of
                          major provisions attached).”

                          The May 24, 1994, memorandum exists today as the only
                          Department-wide policy statement on conference activities.
                          However, while this memorandum delegates authority to
                          approve conferences and provides a summary of the major
                          provisions of the Federal Travel Regulation, it relies upon
                          Secretarial Officers, Managers of Operations Offices, and
                          Administrators of the Power Marketing Administrations to
                          establish local policies and procedures for DOE and DOE
                          contractor conferences that would implement the
                          Presidential and OMB guidance.

                          This policy memorandum did not require standardized,
                          consistent Department-wide conference policies. During a
                          review of the actions taken by the Office of Energy
                          Research (ER), Defense Programs (DP), Environmental
                          Management (EM), and the Oakland and Albuquerque
                          Operations Offices to implement the requirements of the
                          May 24, 1994, memorandum, we found that local policies
                          and procedures for DOE and DOE contractor conferences
                          had not been consistently established. For example, EM
                          and the Albuquerque Operations Office did issue policy on
                          the approval of Department of Energy conferences and
                          meetings. However, we were unable to identify actions
                          taken by the Office of Energy Research, Defense
                          Programs, and the Oakland Operations Office to develop:
                          (1) procedures for the approval of DOE and DOE contractor
                          conferences; (2) procedures to implement the conference
                          policy contained in the Federal Travel Regulation; (3)
                          procedures to reduce the overall cost of attending
                          conferences; or (4) goals for their conference activities.
                          The actions taken by ER, DP, EM, Albuquerque, and
                          Oakland are discussed in more detail in Appendix II.

Some Conferencing         Some conferencing practices of Department contractors did
Practices of Department   not appear to be consistent with the Presidential
Contractors Did Not       memorandum and OMB policy regarding the selection of
Appear to be Consistent   conference sites, the limitation on the number of conference
with the Guidance and     attendees, or the minimization of conference costs.
Policy of the President   Specifically, our inspection found:



Page 9                                                              Details of Finding
          - National Laboratories have hosted conferences at
            various sites, including many DOE-owned as well as
            some non-DOE facilities. Non-DOE conference
            facilities were selected without evaluating and
            documenting the cost of alternative conference sites as
            required by Presidential guidance and OMB Bulletin
            93-11. During interviews with National Laboratory
            conference coordinators, we found no evidence of any
            cost, logistics, or other analysis that was completed to
            justify the non-DOE conference sites selected. In a
            sample of seven non-DOE conference sites selected
            by four National Laboratories, there was no
            documentation identifying the cost of the alternative
            conference sites that were considered.

          - Significant numbers of DOE and DOE-funded contractor
            participants have attended conferences sponsored both
            by Department contractors and by organizations outside
            the Department. While conference attendance is
            essential for the exchange of information which furthers
            the Department’s technical and scientific efforts,
            Government policy requires that the Department
            establish internal procedures which minimize the
            number of conference attendees consistent with
            accomplishing the Department’s goals. During our
            inspection, we identified conferences which were
            attended by many DOE-funded participants, but we
            could not identify any Departmental policy which
            ensures that the number of conference participants is
            kept to a minimum.

                   For example, 525 DOE and DOE contractor
                   employees attended the Particle Accelerator
                   Conference 1997 (PAC’97) that was sponsored
                   by the Canadian TRIUMF Laboratory in
                   association with the University of Maryland, and
                   held during May 1997, in Vancouver, British
                   Columbia. The estimated cost to the
                   Department for DOE and DOE contractor
                   attendance at this conference was
                   approximately $1 million. This included
                   registration fees, air fare, per diem, and lodging,
                   but excluded salaries for the 525 DOE and DOE
                   contractor participants. Although precise salary
                   costs were not available, we estimated that

Page 10                                            Details of Finding
          inclusion of such costs would have increased
          the total overall cost of the conference by at
          least $600,000. The DOE and DOE contractor
          employees attending PAC’97 came from the
          following organizations:

                                               Number of
          Organization                         Participants

          Argonne National Laboratory                  55
          Brookhaven National Laboratory               87
          Lawrence Berkeley National Laboratory        77
          Fermi National Laboratory                    70
          Los Alamos National Laboratory               64
          Lawrence Livermore National Laboratory
          27
          Stanford Linear Accelerator Center           76
          Oak Ridge National Laboratory                 9
          Sandia National Laboratory                    4
          Thomas Jefferson National                    51
           Accelerator Facility
          DOE Headquarters                              5

          TOTAL                                       525

          In another example, 176 DOE and DOE
          contractor funded participants from nine
          National Laboratories attended the “Human
          Genome DOE Contractor – Grantee
          Meeting“ that was sponsored by Berkeley
          and held in Santa Fe, New Mexico, during
          January 1996. The estimated total cost to
          the Department for DOE and DOE
          contractor attendance at this conference
          was $338,000 in registration fees, salaries,
          per diem, and lodging. Airfare was not
          included in this estimate and would
          represent an additional cost.

          We make no judgment whether the number of
          DOE laboratory personnel attending these
          and other conferences was excessive.
          However, there was no evidence that
          Laboratory management considered the
          appropriateness of the attendance of all the
          participants, consistent with the Presidential
          and OMB guidance to minimize conference
          attendance.

Page 11                                    Details of Finding
          Some conferencing practices of Department contractors
          may not be consistent with Federal policy on the use of
          Federal funds. Specifically:

          -   Berkeley collected and used conference registration
              and exhibitor fees in a manner that may not be
              consistent with the Miscellaneous Receipts Act or the
              specific terms of its management and operating
              contract. For example, we found several instances in a
              sample of Fiscal Year 1996 Berkeley conferences
              where income from conference registration and
              exhibitor fees exceeded the cost of the services they
              were collected for, resulting in excess funds.
              Specifically, excess funds in the amount of $8,826
              were transferred by Berkeley from a conference
              account to a Berkeley operating account. In another
              instance, excess funds in the amount of $8,550 were
              transferred from a Berkeley unallowable conference
              account to a Berkeley allowable conference account.
              We note that the deposit of registration and exhibitor
              fees to a separate conference account outside of the
              letter of credit is the current practice at Berkeley, and if
              excess unallowable account funds remain at the end of
              a conference, those funds are applied to the allowable
              conference account. The Miscellaneous Receipts Act
              (31 U.S.C. 3302), which was applicable to Berkeley
              through the provisions of its management and
              operating contract, may require that these types of
              excess funds be deposited into the General Fund of
              the Treasury.

              The Department’s conferencing activities generate
              significant registration and other fees. Given the
              experience at Berkeley, we concluded that the
              Department needs to review the broader issue of
              whether all conference registration and other fees
              collected by the Department’s contractors who are
              subject to the requirements of the Department’s Chief
              Financial Officer’s Accounting Handbook (Accounting
              Handbook), should be deposited to the Treasury as
              miscellaneous receipts. Specifically, the Accounting
              Handbook requires that collections made by the
              Department’s integrated contractors are to be
              accounted for as either: (a) an appropriation
              reimbursement; (b) reductions of cost; or (c) Treasury

Page 12                                                Details of Finding
              General Fund miscellaneous receipts. Appropriation
              reimbursements are required to be deposited directly to
              the Treasury as a credit to a DOE Appropriation
              Account. Collections accounted for as reductions of
              cost may be deposited into the contractor’s DOE special
              financial institution account. However, collections
              accounted for as reductions of cost must be budgeted
              as offsets to cost, or must constitute items such as: (1)
              proceeds from personal property sales; (2) collections
              from other DOE contractors for cash work under
              $100,000; (3) refunds; or (4) rebates. Collections not
              covered as either appropriation reimbursements or
              reductions of cost are to be deposited into a General
              Fund miscellaneous receipt account.

              In the case of conference registration and exhibitor fees
              collected by the Department’s contractors, this criteria
              has not been met. Therefore, based on the criteria
              contained in the Accounting Handbook, we believe the
              Department should evaluate the collection of
              conference registration and exhibitor fees by the
              Department’s integrated contractors, and determine the
              extent to which all such collections would be subject to
              deposit as a miscellaneous receipt.

          -   DOE and DOE contractor employees have attended
              conferences sponsored by National Laboratories where
              meals have been paid for through conference
              registration fees. However, we found in some instances
              that conference participants’per diem has not been
              reduced when such meals have been paid for through
              conference fees. As a result, some individual
              employees were reimbursed twice for subsistence
              expenses while others incorrectly reduced per diem
              claimed. In a sample of 71 travel vouchers from two
              DOE-sponsored conferences attended by participants
              from seven National Laboratories as well as DOE
              employees, we found that 22 conference participants, or
              31 percent, did not make appropriate per diem
              reductions. We believe the Department needs to
              establish a policy whereby DOE-sponsored conference
              registration forms clearly indicate specific meals that
              are provided as part of a conference registration fee,
              and consider requiring a copy of the conference
              registration form be filed with travel claims submitted by
              DOE-funded conference participants.

Page 13                                              Details of Finding
          -   National Laboratories have used conference registration
              fees paid by other Federally-funded organizations to
              cover the cost of entertainment (including recreational
              and social events), a practice that may not be consistent
              with Federal appropriations law and the Comptroller
              General principle that entertainment may not be paid
              with Federal funds unless authorized by statute.
              Specifically, “Principles of Federal Appropriations Law,”
              states that:

                 “Just as the entertainment of government
                 personnel is generally unauthorized, the
                 entertainment of non-government personnel is
                 equally impermissible. The basic rule is the
                 same regardless of who is being fed or
                 entertained: Appropriated funds are not
                 available for entertainment, including free food,
                 except under specific statutory authority.”

              We found that many Federally-funded organizations
              have sent representatives to Berkeley sponsored
              conferences and have paid registration fees to Berkeley
              with Federal moneys. However, portions of these
              registration fees have been used to pay for unallowable
              conference costs, such as alcohol and entertainment.
              Berkeley has established a practice of advertising a
              single registration fee per conference, requiring that
              conference participants pay such a fee as a means of
              defraying both allowable and unallowable costs
              expected to be incurred during the conference.
              Federally-funded organizations such as the Los Alamos
              National Laboratory (Los Alamos), Lawrence Livermore
              National Laboratory (Livermore), and the Stanford
              Linear Accelerator have paid the Berkeley registration
              fees through the issuance of a single institutional check
              for each of their conference participants.

              For example, Berkeley sponsored a “Human Genome
              DOE Contractor - Grantee Meeting,” in Santa Fe, New
              Mexico, during January 1996. According to Berkeley
              conference files, 362 participants attended this meeting,
              where 267, or 74 percent, were from Federally-funded
              institutions. According to the Berkeley Conference
              Coordinator, registration fees of $240 per Federally-
              funded participant were collected and deposited in the

Page 14                                              Details of Finding
              Letter of Credit conference account. The Berkeley
              Conference Coordinator told us the initial conference
              budget allocated $80 per person (or $20,800 from
              Federally-funded participants) which was to be
              deposited to the unallowable Letter of Credit conference
              account to pay for expenses such as breaks, a
              reception, and alcohol. However, alcohol expenses
              were never incurred as a no-host bar was used, and
              excess unallowable account funds were moved to the
              allowable conference account. 1

              In fact, we found that the practice of charging a single
              conference registration fee which may include items of
              unallowable costs appears to be common, and is used
              by other National Laboratories. Examples of other
              Department contractors that include items of cost in
              conference registration fees that appear to be
              questionable are as follows:

                                                Registration    Questionable
              Conference          Sponsor           Fee           Costs

              Trapped Charged     Livermore      $235.00         Boat Cruise
              Particles                                          Picnic
                                                                 Concert

              4th Conference on Oak Ridge         $500.00        Reception
              Inorganic         National                          Theater
              Membranes         Laboratory                        Tennessee BBQ

              Biotechnology       National        $350.00        Wine Tasting
              Symposium           Renewable
                                  Energy
                                  Laboratory

              Workshop on Deep Argonne            $340.00        Social Hour
              Inelastic Scattering National                      Boat Tour
                                   Laboratory

              ISCOPE ‘97          Los Alamos     $300.00         Reception
                                                                 Yacht Cruise


          1
            Office of Inspector General Report, Number
          WR-V-96-21, addressed the issues of Berkeley using
          the Letter of Credit to finance unallowable costs; and
          commingling registration fees, which were collected to
          pay the unallowable costs, with Departmental funds in
          the special bank account.

Page 15                                                        Details of Finding
          Additionally, we found an example where entertainment
          and social events were advertised as part of a DOE
          National Laboratory’s Conference Announcement.
          Specifically, the XIX International Linac Conference
          (LINAC98), organized by Argonne National Laboratory in
          association with Fermi National Accelerator Laboratory,
          was held during August 1998, in Chicago, Illinois, with a
          conference registration fee of $550. LINAC98
          “Conference Information” states that conference social
          events are included in the conference registration fee,
          and includes a box lunch during an afternoon at the
          Chicago Botanic Garden, an outdoor reception and
          barbecue, followed by a concert with a world renowned
          cello soloist.

          We recognize that there is a distinction between
          Government and corporate practice regarding
          entertainment expenses, and that entertainment as a
          business-related expense is an established practice in
          the corporate sector. We also recognize that significant
          business can be conducted informally at receptions and
          social events associated with conferences. However, the
          policy underlying the rule for the use of Government
          funds, is summarized in an excerpt from Comptroller
          General decision B-223678, June 5, 1989, which states
          that:

               “The theory is not so much that these items can
               never be business-related, because sometimes
               they clearly are. Rather, what the decisions are
               really saying is that, because public confidence
               in the integrity of those who spend the
               taxpayer’s money is essential, certain items
               which may appear frivolous or wasteful --
               however legitimate they may in fact be in a
               specific context -- should, if they are to be
               charged to public funds, be authorized
               specifically by the Congress.”

            “Principles of Federal Appropriations Law” provides
            additional Federal policy on the use of Government
            funds for entertainment, and states that “Except where
            specifically appropriated for, entertainment cannot
            normally be said to be necessary to carry out the


Page 16                                           Details of Finding
              purposes of an appropriation.” Therefore, the practices
              described above should be reviewed by the Department.

          -   DOE contractors, specifically several National
              Laboratories, sponsored conferences using registration
              fees to provide banquets for conference participants.
              Banquets associated with some National Laboratory
              conferences appeared to be primarily entertainment and
              social activities. The use of Federal funds in these
              instances may not be consistent with the Comptroller
              General principle that meals cannot be paid for with
              Federal funds unless the meal includes essential formal
              discussions, lectures, or speeches associated with the
              conference. Specifically, during our review of
              conferences hosted by a sample of National
              Laboratories, we found some banquets that were
              advertised as “social events,” or that included boat
              cruises, the use of facilities distant from the conference
              site (e.g. an Indian pueblo, a museum, an art institute,
              and a craft center), entertainment, and the serving of
              alcohol.

              For example, the Thomas Jefferson National Accelerator
              Facility sponsored the HEPiX meeting at Newport News,
              Virginia, in October 1997. Included in the $125
              conference registration fee was payment for an evening
              reception, banquet, and tour of the Hampton Roads
              Harbor aboard a schooner ship. These activities were
              specifically identified as “Social Event - Cruise and
              dinner” in the HEPiX Conference “Final Programme.”

              Further, Berkeley sponsored an “Official banquet” with a
              budget of $4,500, which was approved by the Berkeley
              Conference Coordinator as part of the DOE/BES
              Workshop that was held in San Antonio, Texas, on
              November 3-4, 1995. This “Official banquet” began on
              November 3, 1995, after the conference recessed for
              the day, at a location that was distant from the
              conference site. In fact, Berkeley paid for the rental of a
              boat to transport conference participants to the banquet
              site, the “Southwest Crafts Center,” which was rented
              specifically for this event. After arriving at this location,
              60 banquet participants were provided dinner and were
              entertained by a mariachi band. The total cost of the
              banquet was $4,357, including $805 in alcohol and

Page 17                                                Details of Finding
             $1,275 for rental of the Crafts Center. During an
             interview with the Berkeley Conference Coordinator, the
             Conference Coordinator said that conference participant
             registration fees of $110 per person were used in part to
             pay for the “Official banquet” costs, which included the
             alcohol, the boat ride, and the entertainment. The
             Conference Coordinator also said that the banquet
             agenda included a speaker.

             The Comptroller General has determined that
             reimbursement for meals provided to Federal employees
             as part of a formal discussion at a meeting is authorized
             only if the meals are incidental to the meeting; attendance
             of the employee at the meals is necessary for full
             participation in the business of the meeting; and the
             employee is not free to partake of meals elsewhere
             without being absent from essential formal discussions,
             lectures, or speeches concerning the purpose of the
             meeting.

             Our review of travel vouchers relating to two
             conferences, indicated that a number of participants
             had not offset the meals received at social events
             and banquets associated with the conferences.
             Offset for the cost of such meals could ameliorate
             some of the concerns regarding the possible
             inappropriate use of Federal funds, as discussed
             above. The practice of using Federal funds for
             conference banquets should be reviewed by the
             Department, and a determination made regarding the
             appropriateness of using Federal funds in such
             circumstances.

          We concluded that the conditions noted during the
          inspection could have been avoided had the Department
          developed and implemented a comprehensive policy
          regarding conferencing, consistent with Presidential and
          OMB direction.




Page 18                                             Details of Finding
Recommendations   We recommend that the Director of the Office of
                  Management and Administration, in coordination with the
                  Chief Financial Officer and the General Counsel:

                  1. Review the provisions of the Presidential memorandum,
                     OMB Bulletin 93-11 and the Federal Travel Regulation;
                     and develop specific Department-wide policies and
                     procedures for all DOE and DOE contractor conferences
                     which address the selection of conference sites, the cost
                     differences of alternative conference sites considered,
                     the minimization of conference attendance, and the
                     reduction of the overall cost of attending conferences.

                  2. Develop specific Department-wide policies and
                     procedures for the approval level of all DOE and DOE
                     contractor conferences, and ensure that the approval of
                     these conferences is maintained at a senior level within
                     the Department.

                  3. Develop specific policy which requires that DOE and
                     DOE contractor conference registration forms identify
                     the meals that are included in conference registration
                     fees, and consider requiring that a copy of the
                     conference registration form be filed with travel claims
                     submitted by DOE-funded conference participants.

                  4. Review the practice of advertising a single registration
                     fee per conference that includes both allowable and
                     unallowable conference expenses, and determine the
                     extent to which this practice should be consistent with
                     the Comptroller General’s principle that Federal funds
                     may not generally be used for the payment of
                     entertainment and other unallowable costs.

                  5. Establish policy on the development of conference
                     registration fees by Department contractors, with
                     particular attention given to the identification of
                     allowable and unallowable costs as two separate
                     registration fee components.

                  6. Review the practices of DOE contractors as they relate
                     to the use of Federal funds for the payment of banquet
                     and meal expenses at conferences and meetings, and
                     (1) determine the extent to which these practices should
                     be consistent with OMB Bulletin 93-11 and the decisions

Page 19                                    Recommendations and Comments
                        of the Comptroller General regarding the use of Federal
                        funds, and (2) establish policy for all DOE and DOE
                        contractor conferences regarding banquet and meal
                        expenses.

                     7. Determine the applicability of the Miscellaneous
                        Receipts Act as it relates to the collection of registration
                        and exhibitor fees for DOE and DOE contractor
                        conferences; develop a specific policy regarding the
                        treatment of registration and exhibitor fees; and ensure
                        that all DOE and DOE contractor conference
                        coordinators are aware of the provisions of this policy.
                        In developing this policy, consider the question of
                        whether all conference registration fees collected by
                        Department contractors should be deposited to the
                        Treasury as miscellaneous receipts.

Management           Management concurred with the finding and five of the
Comments             seven report recommendations, while partially concurring
                     with the other two. Management stated that the Office of
                     Management and Administration will forward a
                     Departmental Notice regarding conferencing to the
                     Secretary for approval by January 8, 1999. This Notice will
                     include overall policy and procedures for DOE employees
                     and contractors to follow when sponsoring or attending
                     conferences.

Inspector Comments   We consider management’s reaction to be responsive to
                     the inspection recommendations.




Page 20                                        Recommendations and Comments
Appendix I – Scope and Methodology
      Scope           We reviewed the practices used by Berkeley in managing,
                      administering, and funding its technical and scientific
                      conferences, with particular emphasis on the allowability of
                      conference costs, the selection of conference sites, and
                      Berkeley’s compliance with the provisions of their
                      management and operating contract. We also reviewed
                      other DOE contractor conference practices and Federal
                      policy relating to conference costs and activities. In
                      reviewing these conference practices, we evaluated:

                      1. Federal policies regarding the use of Government
                         funds for conferences and conference related
                         expenses. This evaluation included policy and
                         guidance established by: (1) the President of the
                         United States; (2) the Office of Management and
                         Budget; (3) decisions of the Comptroller General of
                         the United States; and (4) the Federal Travel
                         Regulation.

                      2. Berkeley’s policy on the use of Government funds
                         for conferences and conference related expenses.

                      3. The process used by Berkeley to fund and pay for
                         allowable and unallowable conference expenses.

                      4. The process used by Berkeley and other National
                         Laboratories relating to the selection of conference
                         sites and the use of Federal funds to pay for
                         unallowable costs through conference registration
                         fees.

                      5. Department of Energy policies, procedures, and
                         guidance relating to the approval of conferences
                         and selection of conference sites.

      Methodology     To accomplish the inspection objectives, we reviewed:
                      (1) a February 10, 1993, memorandum from the President
                      of the United States, titled “Government Fiscal
                      Responsibility and Reducing Perquisites;” (2) OMB Bulletin
                      93-11; (3) the Federal Travel Regulation; (4) DOE Orders
                      and Notices relating to financial management and
                      conference planning; (5) conference and travel expense
                      reimbursement decisions of the Comptroller General of the
                      United States; (6) the Federal Acquisition Regulation


Page 21                                               Scope and Methodology
Appendix I

             (FAR); (7) the Department of Energy Acquisition Regulation
             (DEAR); (8) the DOE Accounting Handbook; (9) a sample
             of Berkeley conference files for conferences sponsored or
             hosted by Berkeley during Fiscal Years 1994 through 1997,
             with primary emphasis on a judgmental sample of 12 of 46
             conferences held in Fiscal Year 1996; (10) financial, travel,
             and conference related contract provisions of the
             management and operating contract with the Regents of
             the University of California for the management of
             Berkeley; and (11) conference practices at other DOE
             National Laboratories.

             As part of our review, the Office of Inspections obtained
             information at the Oakland Operations Office and Berkeley.
             We also interviewed Department of Energy Headquarters
             officials, and officials at several Operations Offices and
             National Laboratories; including among others the Oakland
             Operations Office, Berkeley, Los Alamos National
             Laboratory, and Lawrence Livermore National Laboratory.
             This inspection was conducted between March 1995 and
             July 1998.

             This inspection was concluded in accordance with the
             “Quality Standards for Inspections” issued by the
             President’s Council on Integrity and Efficiency.




Page 22                                         Scope and Methodology
Appendix II – Actions Taken by Assistant Secretarial Offices and Two
Operations Offices to Implement Conferencing Policies
 Actions Taken by            The Assistant Secretary for Environmental Management
 Assistant Secretarial       issued an April 20, 1995, memorandum to all Deputy
 Offices                     Assistant Secretaries which addressed the “Delegation of
                             Authority for EM Headquarters Conference Activities.” This
                             memorandum identified an “EM Headquarters Conference
                             Approval Policy” and provided an “EM Conference
                             Approval Request Format.” The EM policy stated that each
                             Deputy Assistant Secretary was to ensure that all EM
                             conference activities and justifications under their purview:
                             (1) explicitly demonstrate that such activities are reduced to
                             a minimum; (2) are considered as the only way to satisfy
                             programmatic requirements; and (3) are provided in the
                             most cost effective manner. The “EM Conference Approval
                             Request Format” contained a section titled “CONCERNS
                             THAT INFLUENCE APPROVAL OF A CONFERENCE,”
                             and addressed the need for information on areas of
                             concern such as the purpose and objectives of the
                             conference, the conference location, and the number of
                             conference attendees. However, we were unable to
                             identify any action taken by either the Office of Energy
                             Research or the Office of Defense Programs in response to
                             the May 24, 1994, memorandum.

Actions Taken by the      We were unable to identify any action taken by the
Oakland Operations Office Oakland Operations Office to develop policies and
                          procedures in accordance with the May 24, 1994,
                          memorandum. Responding to the Office of Inspections, the
                          Oakland Operations Office attributes the absence of
                          specific action (i.e., policies, notification of contractors) to
                          its interpretation that 41 CFR 301-16 (Federal Travel
                          Regulation) upon which the requirements of the May 24,
                          1994, memorandum is based, was not applicable to
                          contractors. This interpretation was concurred with by
                          Oakland’s legal staff in June 1997.
 Actions Taken by the
 Albuquerque Operations The Albuquerque Operations Office was not able to identify
 Office                   any action taken in response to the May 24, 1994,
                          memorandum to develop procedures for the approval of
                          DOE contractor conferences, or to reduce the overall cost
                          of attending DOE contractor conferences. However, the
                          Albuquerque Operations Office did develop a “Policy on
                          Conference and Meeting Room Rentals and Food
                          Services” for Operations Office conferences and meetings.
                          This policy addressed conference and meeting room rental
                          procedures and coffee/food service requests. This policy

Page 23                                  Actions Taken to Implement Conference Policies
Appendix II
              Specifically addressed the issue of reducing the overall
              cost of attending Operations Office conferences by
              requiring meeting and conference organizers to check the
              availability of “no charge” meeting facilities, and by
              requiring justifications and cost estimates to rent other
              facilities if “no charge” facilities were not available.




Page 24                 Actions Taken To Implement Conference Polices
                                             IG Report No.__DOE/IG-0433__

                    CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the
usefulness of its products. We wish to make our reports as responsive as
possible to our customers' requirements, and therefore ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

       1.      What additional background information about the
               selection, scheduling, scope, or procedures of the audit
               or inspection would have been helpful to the reader in
               understanding this report?

       2.      What additional information related to findings and
               recommendations could have been included in this
               report to assist management in implementing corrective
               actions?

       3.      What format, stylistic, or organizational changes might have
               made this report's overall message more clear to the reader?

       4.      What additional actions could the Office of Inspector General
               have taken on the issues discussed in this report which would
               have been helpful?

Please include your name and telephone number so that we may contact you
should we have any questions about your comments.

Name ____________________________ Date_____________________

Telephone _______________________ Organization _____________

When you have completed this form, you may telefax it to the Office of
Inspector General at (202) 586-0948, or you may mail it to:

       Office of Inspector General (IG-1)
       U.S. Department of Energy
       Washington, D.C. 20585
       ATTN: Customer Relations
If you wish to discuss this report or your comments with a staff member of the
Office of Inspector General, please contact Wilma Slaughter at (202)
586-1924.
The Office of Inspector General wants to make the distribution of its reports as
 customer friendly and cost effective as possible. Therefore, this report will be
available electronically through the Internet at the following alternative address:


   Department of Energy Human Resources and Administration Home Page
                         http://www.hr.doe.gov/ig

       Your comments would be appreciated and can be provided on the
              Customer Response Form attached to the report.

                      This report can be obtained from the
                           U.S. Department of Energy
                 Office of Scientific and Technical Information
                                   P.O. Box 62
                         Oak Ridge, Tennessee 37831
